 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION


        Opportunities to Further Enhance
                Controls Over User Fees

       Audit Report No. BSD-17612-6-0001/January 2006




                    PUBLIC RELEASE



                Office of Audits, Business and Science Division
                                                   t:;;eo.,         UNITEDSTATES DEPARTMENTOF COMMERCE


                                                   \~)~di
                                                                    Office of Inspector General
                                                                    Washington. DoC. 20230




         JAN - 9 2006



     MEMORANDUM FOR:	                   MaureenWylie
                                        ChiefFinancialOfficer
                                        NationalOceanicand AtmosphericAdministration
     FROM:	                             JohnM.SeebaB~~

                                        AssistantInsp~~~-~rAUditing

     SUBJECT:	                          Opportunities to Further Enhance

                                        Controls Over User Fees

                                        Final Audit Report No. BSD-17612-6-0001

     As a followup to our September23, 2005,briefingwith NationalOceanicand Atmospheric
     Administrationofficials,we are providingyou with the resultsof our audit of NOAA user fees.
     Thepurposeof our audit was to evaluateNOAA's actionsin implementingits audit actionplan
     for addressingthe three recommendationsthat wereincludedin the OIG's audit report SID­
     11881,InternalControlsOver UserFeesNeed Improvement,issued on March 30, 2000. While
     we foundthat NOAA has implementedall ofthe actionsincludedin its plan, it has an
     opportunityto furtherenhance its internalcontrolsin two importantareas. Both areas focuson
     NOAA's standardProduct/ServiceCost Computationformand involvethe Finance Office's
     randomauditsand the line managementand budgetoffice's documentedreviews of the form.
     Ourfindingsand conclusionare on pages 3 and 5, respectively.
     Introduction

     The Officeof Managementand Budgetdefinesuser fees or user chargesas assessmentslevied
     on a class of individualsor businessesdirectlybenefitingfrom,or subjectto regulationby, a
     govermnentprogramor activity. DuringFiscalYear2004,NOAAline officesreportedthe
     collectionof $23.1 million in user fees fromthe sale of 73 differenttypes of specialproductsand
     services. Examplesincludepennits, reproductionsof weatherrecordsand data, aerial
     photographs,oceanographicrecords,hydrographicand topographicsurveys,and the certification
     ofrecords_~4 'lccessto computerdatabasesor files. User fees representthe principlethat
     identifiableindividualsor businessesreceivingbenefits:&omgovernmentalservicesbeyond
     thosethat accrueto the generalpublic shouldbearthe cost of providingthe service.
                                              ,
     In March2000, the Officeof InspectorGeneralconductedan audit of NOAA user fees and
     reportedthat the bureauneededto improveits internalcontrolsover th~mI. The OIG
.
..   recommendedthat NOAA m*e certainrevisionsto its userfee policy and proceduresinvolving




     I   STD-1188I-O-000I, Internal Controls Over User Fees Need Improvement, March 30,2000.
      U.S.Departmentof Commerce                                                        ReportBSD-17612-6-0001
      Officeof InspectorGeneral                                                                  Jammrv2006
      accountabilityand enforce its policiesand proceduresgoverningbiennial reviews2. Audit
      resolutionwas accomplishedwhen, in June 2000,NOAAconcUlTedwith the recommendations,
      providedthe OIG with its audit actionplan containingproposedcorrectiveactions,and obtained
      theOIG'sagreementto the plan.	                                           .


      Auditfollow-upis an integral part of goodmanagement,and is a shared responsibilityof agency
      managementofficialsand the OIG. Timelycorrectiveactiontaken by managementon resolved
      fmdingsand recommendationsis essentialto improvingthe effectivenessand efficiencyof
      governmentoperations. So, too, is the OIG's monitoringof promised correctiveactions in order
      to assurethat they have actuallybeen taken. OMBCircularA-50,Revised,Audit Followup3,and
      Departmentof CommerceAdministrativeOrder213-5,Audit Resolutionand Follo}j!-up~, ­
      identifythe responsibilitiesof managementofficials,the audit follow-upofficials,and the OIG
      withregardto audit follow-up. One of the OIG's 1'esponsibilitiesspecifiedin DAO 213-5,which
      implementsthe provisionsofOMB CircularA-50,is perfonningperiodicmanagementauditsof
      otganizationalunits' audit resolutionactivities,includingthe implementationand effectiveness
      of significantrecommendations.

      Objectives, Scope, and Methodology

      Thepurposeof our audit was to evaluateNOAA's actionsin implementingits audit actionplan
      for addressingthe three recommendationsthat wereincludedin the OIG's audit report STD­
      11881,InternalControlsOver UserFees Need Improvement,issuedon March 30, 2000. The
      OIG's recommendationsand NOAA's proposedactionsfor implementingthem are set forth in
      the bureau's audit actionplan, whichwe have includedas Attachment1.

      The auditdid not includedetailedtestingof NOAA's Product/ServiceCost Computationforms6
      and accountingrecordsto determineif the bureauis properlyreviewing,charging,and reporting
      its userfees. Except as noted in ~s report,the auditalsodid not include a reviewof NOAA's
      internalcontrolsor compliancewith applicablelawsand regulations. Instead,the auditwas
      liinitedto confirmingwhetherNOAA has compliedwith its audit actionplan in implementing
      the recommendationsfrom the March 2000OIG report. We did not assess the reliabilityof
      computer-generateddatabecause such datawas not relevantto our review.

      Weusedthe followingmethodology:

               .   Review of federal law, guidance, policies,and procedures. We examinedthe
                _-:fQI.1owingfederal law, guidelines, policies, and procedmes that provided background

      2 Both the Chief Financial Officers Act of 1990 and Office of Management and BudgetCircular A-25, Revised,
      User Charges, require that agencies review their.user fees biennially and make recommendations on revising those
      charges to reflect costs incurred.
      3Issued September 29,1982.

      4 Effective June 21, 1991.

':	   $According to DAO 213-5, the desfgnated Audit Follow-up Official for the Department of Commerce is the
      Assistant Secretary for Administration
      6Each organization furnishing a special product or service is required to accumulate the related cost data and
      complete a Product/Service Cost computation form and its supporting worksheets for each special product or
      service. NOAA organizations must submit the fonns for all special products/services at least biennially to their
      Line/Staff Management and Budget Office for approval of fees for the ensuing two fiscal years. The costs that must
      be considered in developing special product/service prices are shown on the forms.
                                                                2
      U.S. Department of Commerce                                          Report BSD- 17612-6-0001
      Officeof InsuectorGenera],                                                       January 2006
                   on user fees and information on the implementation status of recommendations ftom
                   the OIG's March 2000 report: Chief Financial Officers Act of 1990, Office of
                   Management and Budget Circulars A-25 (Revised), User Charges and A-50
                   (Revised), Audit Followup, Department ofCoromerce Administrative Order 213-5,
                   Audit Resolution and Follow-up, and NOAA Finance Handbook and related May 22,
                   1995, August 7, 2000, and June 25, 2003, memoranda relating to user chaTges.
              .	   Examination of relevant documents. We evaluatedNOAA's actionsin
                   implementingits audit actionplan by reviewingthe followingdocuments: NOAA's
                   audit actionplan; implementationstatusreports;FiscalYear 2004 certifiedlists of
                   specialproducts or services;line managementand budget office finalreview      ­

                   summaries;and cost computationforms,worksheets,e-mails,and memoran,9,ums
                   relatedto the Finance Office's randomaudits;and a Departmentalquality assurance
                   reviewof NOAA's auditactionplan. .	                 ­

              .	   Interviews. We spokewith officialsand staffin NOAA's Audit, Internal Control,
                   and InformationManagementOffice,FinanceOffice,andNational MarineFisheries
                   Serviceand the Department'sOfficeof Managementand Organization.

      We performed our fieldwork from July 2005 to September 2005 at NOAA's headquarters in
      Silver Spring, Maryland. We conducted our revi~w in accordance with generally accepted
      government auditing standards and under the authority of the Inspector General Act of''1978, as
      amended, and Department Organization Order 1o~13, dated May 22, 1980, as amended.

      NOAAneeds to strengthen implementation of its audit action plan in two key areas

      Whilewe found,thatNOAA has basicallyimplementedall of the actionsincluded in its-plan,it
      has an opportunityto further enhanceits internalcontrolsin two importantareas. Both areas
      focusonNOAA's standardProduct/ServiceCost Computationform and involvethe Finance
      Office'srandomaudits and the linemanagementand budgetoffice's documentedreviewsof the
      forms.	                          ­

         1.	 Random audits of Product/Service Cost Computation forms

      Recommendation2 provided that NOAAenforceits policiesand procedurescallingfor random
      auditsofProductlServiceCost Computationfonns. We foundthat the Finance Officehas
      implementedNOAA's audit actionplan by subsequentlyconductingaudits of computationforms
      in FiscalYears2001,2003, and 200S. However,theseauditsdid not includethe forms for two
      programs!bat,~counted for $19.5 million,or 84%,of NOAA's reportedFiscal Year 2004user
      fee collectionsof $23.1million, i.e., SeafoodInspections($15.9million,6go.lo)and SablefishIFQ
      ($3.6million,15%). The intent of recommendation2, as it relatesto random audits, was to
      ensurethat,throughadequateaudit coverage,NOAA's user fees are consistentand complywith
      Federalpolicyand legislation. FinanceOffice6fficialstold us that they use statisticalsampling
      to selectthe fonns for audit and that formsfor the twoprogramshave not yet been includedin
':	   their selectionsusing this metbodology. We believethat the FinanceOffice's modificationof its
      samplingmethodologyto includeperiodiccoverageof bothprogramswill producemore
      meaningfulauditsand greater assurancethat its user fees are consistentand comply with Federal
      policyand legislation. WithoutFinanceOfficeaudit coverageof the two programs,NOAA's'
      assurancewouldonly extendto a relativelysmallpercentage---16%in Fiscal Year 2004-0f its
      reporteduser fee collections.
                                                       3
      U.S.Department of Commerce                                                        Report BSD-17612-6-0001
      OfficeofInsDectorGeneral                                                                      January 2006
            2. Documented final review of ProductlServke Cost Computation forms

      Recommendation3 providedthat NOAA enforcefederalinternalcontrol standardsby
      documentingthe linemanagementand budgetoffices' finalreviews of the Product/ServiceCost
      Computationforms. We found that NOAAhas taken severalstepsto implementits audit action
      plan~In August2000, it issued revised userfee policiesand proceduresthat directall NOAA
      officesto follow OMB's interna1controIstandardsfor the federal governmentby documenting
      eachfmalreview of unit prices with a brief summarythat addressesscope, results,and issue
      resolution. Also, in May 2001, the FinanceOfficenotified'!heline officesto beginusing its
      revisedProduct/ServiceCost Computationform. Therevisedform includes spacein theline
      managementand budgetoffice review sectionto documentits reviewscope, results-,-  and)ssue
      resolution? Duringour follow-upaudit,we notedthat NOAAhas been enforcingcompliance
      with its revisedproceduresthrough its randomauditsto determineif the forms containa
      documentedswnmary.

      Despitethese actions,we found that one of the four lineofficesthat collecteduser fees during
      FiscalYear2004-NMFS-did not completethe documentedsummary,either in the space
      providedon the revised form or as an attachmentto the olderversion. A NMFS official
      acknowledgedthat in May 2001 the FinanceOfficeprovidedhim with a copy of the revisedfonn
      but he couldnot explainwhy NMFS has failedto use it. He addedthat in May 2005,the Finance
      Officedid commentin its audit of the formfor one ofNMFS's user fees that they werenot using
      the currentfonn and a review summarywas not otherwiseinclUded.He said he subsequently
      requestedthat the FinanceOffice send himthe latestformfor use on the Fiscal Year2005
      u~ted reviewsof user fees.

      Oneof the forms for NMFS's products and servicesthat did not containa documentedreview
      summarywas that for its SeafoodInspectionProgram,which,as previouslynoted,accountedfor
      69% of NOAA's reporteduser fee collectionsinFisca1Year2004. Also, we notedthat, although
      not a findingin our March 2000 audit report,the documentedcost computationslackedthe
      approvalsignatUresand dates of both the preparer's supervisorand the NMFS managementand
      budgetofficereviewingofficial. N1v.IFS  officialstold us thatthe SeafoodInspectionProgram
      doesnot use the standardProduct/ServiceCostComputationform,which, in its revisio~
      includessectionsfor the documentedreviewsummaryandthe signaturesand dates of
      supervisoryand managementand budgetreviewingofficials. Instead,the FinanceOffice
      approvedNMFS's use of an alternate formatto accommodatethe calculationsfor the program's
      multipletypes of inspectionservices. NMFSofficialsalsotold us that, while there areno
      signature§.~4.datesassociatedwith the alternateformat,once it is completedandthe various
      rates established,a meetingis held with NMFS's ChiefFinancialOfficer and DeputyAssistant
      Administratorfor their approval. However,a FinanceOfficeofficial informedus that the
      SeafoodInspectionProgram is still exp~ted to followthe samedocumentationrequirementsas
      those for NOAA's otherproducts and services. .

':	   Th~ intent of recommendatiol) 3 'was to provide written evide~ce that a final re~ew and approval
      of unit prices was conducted and that the evidence is purposeful and useful to managers in
      controlling their operations. Adequately documented reviews, including review sununaries and
      supervisory and reViewing officials' signatures and dates, increase the efficiency and

      7   NOAA bas made the revhed form available on the NOAA Bledronic Forms website.
                                                            4




                                       -      -----         - -   -_U-   -   ~---~u_-     ---        ---------­
      U.S. Department of Commerce                                        Report BSD-17612-6-0001
      Officeof InsDectorGeneral                                                      Janumy 2006
      effectivenessof future reviews, facilitatestaff training,and protectthe governmentfromclaims
      by users,GAD,and others that fee levels are inappropriateor the review processwas inadequate.
      Conclusion

      As notedpreviously,we found that NOAAhas implementedall of the'actions includedin its
      actionplan. Nevertheless,its process couldbe strengthenedif the followingactionsare taken:

         1.	 TheFinanceOffice modifiesits samplingmethodologyassociatedwith its randomaudits
             of the Product/ServiceCost Computationformsin orderto includeperiodic coverageof
             both the SeafoodInspectionand the SablefishIFQ programs.

         2.	 TheNational Marine FisheriesService's mimagementand budget office does not approve
             the userfee for any specialproductor serviceunlessa documentedreview summary,
             whichaddr~ses review scope,results,and issueresolution,is includedas part of the
             standardNOAA Product/ServiceCostComputationformor approvedalternatefonnat
         3.	 TheNational MaririeFisheriesServiceincludeswith its alternatefonnat of the NOAA
             Product/ServiceCost Computationfonn for the SeafoodInspectionProgramthe
             signaturesand dates of both the preparer's supervisorand the managementand'budget
             office's reviewingofficial.                                                    .



      BecauseNOAAhas implementedall of the actionsincludedin its actionplan and the reportonly
      identifiesfurtherenhancementsto NOAA's internalcontrols, no further action by NOAAis
      required. We appreciatethe cooperationand courtesiesyour staff extendedto us dmingour
      review.


      CC:	   John 1. Kelly, Jr.

             Deputy Under Secretary for Oceans and Atniosphere


             R J. Dominic                  .


             Director,Finance Office/Comptroller

             Mack A. Cato
             Director, Audit, Internal Control, and Infonnation Management Office
              --:: .,,­


                                            ~



':	                               #




                                                    5
                                                                                                           Attachment 1
                                                      i\" 0..   ~
                                               {<"     ~- ).        UNITED STATES DEPARTM~NT OF COMMERCE
                                                                    The Inspector General
                                               \ 1!1j
                                                   ~~dt"
                                                                    WashingtOn. D.C. 20230


                                                                       JUN 2 7 2000




                                                                                             .-. ­
      MEMORANDUM FOR:          -
                                          -.Sonya G. Stewart                                  ,.     -_:     ,.
                                           ChiefFinancialOfficer/CbjefAdministrativeOfficer
                                           NatioIUllOceanicandAtmosphericAdministration


      FROM:


      SUBJECT:
                                           JolmnieE. Fraziec        ~

                                           Internal Controls Over User Fees

                                                  Need Improvement

                                           Final Audit Report No. STD-11881-0-OOQ1

      Wehavereviewed.NOAA'sauditactionplan dated 1une12,2000, addressingthe findingsand                           .

      recommendations co'ntained in the subject report. The Office of Inspector General concurs with
      yoUrproposed action plan. We believe that the actions planned or taken as described in the audit
      actionpIan,ifproperlyimplemented.
                                     willmeettheintentofourrecommendations.
                                                                         Accordingly,.
      pursuant to Department Administrative Order 213-5. we regard the audit report as resolved. A
      copy of the plan with OIG conCUII'enceis attached.

      Attachment

      cc:	   Scott Gudes. Deputy Under Secretary for Oceans and A~osphere
             Linda J. BiImes. Chief Financial Officer and Assistant SecretaIy for Administration
             Barbara Martin, Chief: Audit and Internal Control Staff Office. NOAA




                =:..:JI*.~


                                               ~



                                    #
':	
                                                                                                                                   ...   ,

     Jlln-I5-0D 08:45           Froa-AUorTUNTEImAL COHTROL
                                                         nAFF OFFICE         fOITl311811
                                                                                                      1-31T P.03/05          Has



                                                    NOAA'II ,AtJDl'T AC"rIOW PLAH

          AIm:t'!' RaJORT 'l'J:'1'tI:2;	             Inte;ua1:    COm:rols     Ove1:' U:;er F~~"s Need
                                                     Improvement.
         'AUPIT R2P~T'              NDMJU~R
                                          z           STP-1l8S1-0-0001/Ma;ocn          :?QOO      .
                                                                             ',-,           ,.'         .r'.             .
         At1PI'1'ED.         ENTiTY;          N4t~onal OCeanic AnP Acmosphe+~o                    Administration

         ~:rTLB or ~tNG;                         NOAA Needs co Escablish A Cent~al!ze4 Database
                                        .        for User Fees      '.,            ., ....
            -                                .
         O!a Recommenda.tio~ 1, :We recommend tMt the Under Seoretary for
         Oceans' and Atmc;,apbere ~mprove in'ternal oontr,ota over NOM u'ser
         f~s by revising' ita .poiicy and p:toceduJ:'es to require   chC;&teaoh
         line and staff' offlce Annually submit to th~ "Fi~        'Office, ~s
         pa~t of 'thep~epar.~'t1onof NOAA's f1n~noial statements,                                                  che
         following user fee i~ormation:

                    1.	 A li~t .of all spe~1al products or s~iceS      anQ, ~~r
                        eaoh, the appr,9ved un1t price, \1n~t pr3.ce rev:t.ew date.
                        and actual fee,~ollect1ons An4 number of ~ransacc1ons.

                    2.	 An accolt\?anyingstatement certifytng.t.he accuracy and
                             c:omplet:enes~          of the iqfo~mation for al~ spepial product:s
                             or servioes            wiLhin the responding line or staff office.

         Actions 7aken or i+~n"ed:    The ~P1nance     Office will ~ev~se
         And distr~buce user fee policies and procedures ~equiri~g
         Line/Staff Offices to annually submi.t. ~s part of the preparat~on
         of the financial scatemencs,   the user fee 1nfor~t1on  as deplcte~
         in parts            l' ~nd 2 in reoownendat1on                1.                                      .

        T'arqet          Date     for       C!r\~let;o~:         AU9uSt 18, 2000




             -""=,7.,;>I'F




..
        OIG Concurrence                     ~~	                                     Pate
         ~llcr{uu,
      Jlln-tS-OD 08:.($             Frol!-AlIOfnlNTERHAlCONTROl.
                                                             STAfFOFFIce            30m3116Q
                                                                                                                   T-32r P.04/0S F-I88




                                                    .    1iOAA I III AUDIIJ.' AC1'1:ON ~LAM

           AUDtT REPORT TITLEJ                            Internal     co.ncrola      OVer User              Fees    Need
                                                         . Impr.ovemenc

           .AunrT	 UPORT NtDmER'                           STO-llS81-0-0001/March
                                                                            2pOO
                                                                               .      ­
           A1JD~TED,2N'1':r'1Tf                 Na~ional Oceanic and Atmosph~r~~ ~mlnis~~ation
                      "   0.'   y
                                                                                          00

           ~In.~	         or !7Z~mG;                NOAA Needs ~o Enforoe                  Its   B1enn1al.     ,
                                                                                                                     Review '0




                                                    Po11c;ies        and    Procedures	                                     .- ,

           OJ:G R.C!~~~at:ion 2:  We recommend. th,at 'the t1n.d~r Sec*~~~r,y°.tor
           Ooeans .~d A~mo3phere 1mp;rove incemal oOntrol~' Over NQM."u~~r'
           fees by:                                                                                                     '




                  .   1.	           Enfo~cing NOM'o~.bienrn.al reviewpol;ic1e$
                                                                             ~d"
                                    procedau:e~,    del1neated   in t~e NOA!LP1MnO~ Handbook and
                                    in its 'M4y,22, 1995, polJ.cy memorand1W. relan.ng         to
                                    .final	 re,,1e~    of unit prioes,  b1enn1al i"evi.ew list1ngs,
                                    and rand~            audic~'of Product/Servioe                        90st OOmpu;at1on
                                    forms.                                                            '




                      2.	           Enforcing OMB's internal control standards for the
                                    federal government, as embodied in OMS Circular A4123,
                                    Revised, by dooumenci~g eaoh final rev~ew of urii~
                                    prices ~1th a summary that addresses scope, resulcs,

                                    and issue resolution.


          1t9t1.onl             Taft"n°   or Vl.'m'1ad:'         The Finance         Office       wiil perform :r:andom
          audits            of user          f~es       to ensure     that      the f1na~        re'Views, of unit:

          pr1ce~ have bee~ completed                             and contai~ a'dooumenced                      summaryw'

          The o~fic~ of P1n~nceang ~n1strat1on (OFA) Will d~recc all
          NOAAOffices in NOAA's revised US~ fee polic1es and procedures.
          co follow OMS's internal con~rol standar4s   for the federal
          gov.e.mrtI!nt, as embodied in OKSC1roUlar A-123, Revised, by                            0




          docume~1ng                  each f1nal. review of unit prioes w~dh a brief summary
          that:'a.dc1resses                scoP~.        resules.      and lssue          resolut~on.
                                                             ~


':	                                            ,.


                                                                           2

     -
   Jlln-'5-00        °' :48
                                                                                                                                                   "


                                              FrOG.AU~lnltlTeRHAL COHTROL
                                                                        $TAFf OFFICE                  ~OITI311S9             H21   P.fflOS F-188




               1:arqot ~a~es t;or COf!IP-1.etion: Random audtta    wi.lJ. be performed by
               April 30., 2001 vit.A subsequent.   audit.s {)ex-formed on a biennially
               b~1"                     following     'receipc,             of   the        informacion    ~i~ect            in the
               f'1ndingt Reoommendations.                                                                                '




                                                                           '...  ..
              tnst;ruocion~ for dooiunenc1ng each final    revi.ew of un1t' ,prtces
            . will b~ 1ncluded in ~      ~Vised NOAAuser, fee 'pol.io1es a,nd
           . procedures to be issued     AugUst: 18. 2000.                                                           '




              OIGConcurrence,                         ~~~         L',
                                                                                                .           Dace    f, f;'    '1 ru


                                                                        "




                  .;.:'::'..';'",!,#,




                                                                            ~
                                                                                       i




':                                                    ­




                                                                                           ,3
